Case: 19-1289

Document: 00117616164

Page: 1

Date Filed: 07/17/2020

Entry ID: 6353293

Appendix A

United States Court of Appeals
For the First Circuit
No. 19-1289
ROGER JOSE ALMANZAR,
Petitioner - Appellant,
v.
UNITED STATES,
Respondent - Appellee.
Before
Howard, Chief Judge.
Torruella and Thompson, Circuit Judges.
JUDGMENT
Entered: July 17, 2020
Plaintiff-appellant Roger Almanzar has filed an application for a certificate of appealability
("COA") from the district court's denial of his motion to vacate filed under 28 U.S.C. § 2255. After
careful review of the COA application, the district court ruling, and the record, we conclude that
Almanzar has not shown that the district court's denial of the motion was either debatable or wrong,
and that he has failed to make "a substantial showing of the denial of a constitutional right." 28
U.S.C. § 2253(c)(2); see Slack v. McDaniel. 527 U.S. 473, 484 (2000).
The application for a COA is denied, and the appeal is terminated.
By the Court:
Maria R. Hamilton, Clerk

Case: 19-1289

Document: 00117616164

cc:
Roger Jose Almanzar
Cynthia A. Young
Donald Campbell Lockhart
Katherine H. Ferguson

Page: 2

Date Filed: 07/17/2020

Entry ID: 6353293

• V

Appendix B

United States v. Almanzar
United States District Court for the District of Massachusetts
January 29, 2019, Decided; January 30, 2019, Filed
Criminal No. 12-cr-l 0367-11-DJC
Reporter
2019 U.S. Dist. LEXIS 14485 *; 2019 WL 383883
UNITED STATES OF AMERICA v. ROGER
JOSE ALMANZAR, Defendant.

MEMORANDUM AND ORDER
CASPER, J.

Core Terms

I. Introduction

sentence, conspiracy, mandatory, cocaine,
ineffective, quantity

Petitioner Roger Jose Almanzar ("Almanzar") has
filed a petition for writ of habeas corpus pursuant to
28 U.S.C. § 2255 (the "Petition"), alleging
ineffective assistance of counsel. D. 876. For the
reasons discussed below, the Court DENIES the
Petition.

Counsel: [*]] For USA, Plaintiff: Jennifer Hay
Zacks, LEAD ATTORNEY, Leah B. Foley, United
States Attorney's Office, Boston, MA; Katherine H.
Ferguson, LEAD ATTORNEY, United States
Attorney for the District of Masssachussetts,
Boston, MA; Linda M. Ricci, Nathaniel R.
Mendell, LEAD ATTORNEYS, Doreen M. Rachal,
Young Paik, United States Attorney's Office MA,
Boston, MA; David J. D'Addio, US Attorney's
Office - MA, Boston, MA.

Judges: Denise J. Casper, United States District
Judge.

II. Standard of Review
An incarcerated person may seek post-conviction
relief under § 2255 if his sentence "(1) was
imposed in violation of the Constitution; (2) was
imposed by a court that lacked jurisdiction; (3)
exceeded the statutory maximum; or (4) was
otherwise subject to collateral attack." David v.
United States. 134 F.3d 470, 474 (1st Cir. 1998). It
is the petitioner's burden to make out a claim for
such relief. Id.
III. Factual and Procedural Background

Opinion by: Denise J. Casper

On November 29, 2012, Almanzar, and
numerous [*2] co-defendants, were named in an
indictment (and, later, a superseding indictment
filed on April 17, 2014)1 charging him with

Opinion
1 The government superseded to allege the conspiracy charge, and its
applicable minimum mandatory sentence, in compliance with

' «

Page 2 of 5
2019 U S. Dist. LEXIS 14485, *2

conspiring to possess with intent to distribute and to
distribute five kilograms or more of cocaine in
violation of 21 U.S.C. § 846. D. 3; D. 294. Part of
the allegations for this conspiracy charge was that
Almanzar had distributed cocaine to one of his co­
defendants, Radhames Pena ("Pena"). D. 503 at 9.
Almanzar and Pena were tried together in a bench
trial that began on June 9, 2014. D. 503-08. At the
trial, Almanzar conceded his guilt as to the
conspiracy charge, but disputed his culpability for
five kilograms of cocaine or more, which would
trigger a minimum mandatory sentence of ten
years. D. 503 at 13-14. Based upon the evidence
presented during the course of the trial, Court found
Almanzar guilty of the conspiracy charged, that the
conspiracy involved five kilograms or more of
cocaine and that such quantity was attributable to
Almanzar. D. 508 at 7.
At the October 9, 2014 sentencing, the Court found
that the applicable base offense level was 34, for
15-50 kilograms of cocaine attributable to
Almanzar and applied a two-level downward
variance for a pending amendment to [*3] the
United States Sentencing Guidelines that had not
yet gone into effect. D. 569 at 7; D. 569-1 at 4.
With a Criminal History Category of III, the
advisory guideline sentencing range ("GSR") was
151-188 months, above the 120-month minimum
mandatory sentence that applied. D. 569-1 at 4.
Although the government recommended a
substantially higher sentence of 188 months, D.
569-1 at 4, the Court imposed a sentence of 140
months (below the GSR, but above the minimum
mandatory sentence), five years of supervised
release and a $100 special assessment. D. 566, 569.
Almanzar filed a timely notice of appeal. D. 576.
On February 19, 2016, the First Circuit affirmed his
conviction in a summary disposition. D. 841.
Almanzar has now filed the Petition, D. 876, and
the Court now turns to the grounds he raises in
support of the Petition.

Allevne v. United States. 570 U.S. 99, 133 S. Ct. 2151, 186 L. Ed. 2d
314(2013).

IV. Grounds for Relief
Petitioner contends that he is entitled to relief under
§ 2255 because he allegedly received ineffective
assistance counsel in regard to his attorney's alleged
failure to explain a plea offer from the government
or explain his potential sentencing exposure after
trial; and for his failure to move to sever his trial
from that of his co-defendant, Pena. [*4]
V. Discussion

A. Ineffective Assistance of Counsel
To demonstrate ineffective assistance of counsel, a
petitioner must show that: "(1) 'counsel's
representation fell below an objective standard of
reasonableness' and (2) 'there is a reasonable
probability that, but for counsel's errors, the result
of the proceeding would have been different.'"
United States v. Constant. 814 F.3d 570, 578 (1st
Cir. 2016) (quoting Strickland v. Washington. 466
U.S. 668, 688, 694, 104 S. Ct. 2052, 80 L. Ed. 2d
674(1984)).
The reasonableness of the attorney's representation
is viewed "as of the time of counsel's conduct."
Strickland, 466 U.S. at 690. Judicial scrutiny of a
counsel's representation and performance must be
"highly deferential" and the Court should make
"every effort ... to eliminate the distorting effects
of hindsight." Bell v. Cone. 535 U.S. 685, 698, 122
S. Ct. 1843, 152 L. Ed. 2d 914 (2002) (internal
quotation marks omitted).
To demonstrate prejudice, Petitioner must show
"that there is a reasonable probability" that, but for
the attorney's deficient performance, there would
have been a different outcome. Strickland, 466 U.S.
at 694. A "reasonable probability is one 'sufficient
to undermine confidence in the outcome.'" Johnston
v. Mitchell. 871 F.3d 52, 64 (1st Cir. 2017)
(quoting Gonzalez-Soberal v. United States. 244
F.3d 273, 278 (1st Cir. 2001)), cert, denied. 138 S.

Page 3 of 5
2019 U.S. Dist. LEXIS 14485, *4

Ct. 1310, 200 L. Ed. 2d 491 (2018). When this
claim is raised as to potential sentencing prejudice,
the defendant must demonstrate that "absent the
[counsel's] errors, the sentencer . . . would have
concluded that the balance of aggravating and
mitigating [*5] circumstances did not warrant" the
sentence. United States v. Sampson. 820 F. Supp.
2d 202, 220 (D. Mass. 2011).

1. No Ineffective Assistance of Counsel As to the
Plea Matters Raised
Almanzar's contention that his counsel failed to
communicate a plea offer of 120 months from the
government is belied by the record. Significantly,
the prosecutor indicates that no such offer was
made by the government, D. 891 at 7, and defense
counsel's affidavit does not suggest otherwise, D.
891-3 at 2. The government's position throughout
plea discussions was that Almanzar would be
subject to a higher sentence and it ultimately
recommended a sentence higher than the 140
months that this Court imposed. D. 891 at 7.
Moreover, all indications were that Almanzar
would not accept a 120-month sentence, not just by
the account of his counsel, D. 891-3 at 2, but by the
scope of the bench trial in which he did not dispute
his guilt of the conspiracy charge, but contested the
government's contention that the quantity of
cocaine attributable to him was high enough to
trigger the minimum mandatory sentence of ten
years. D. 503 at 13-14; D. 507 at 21-22; see D. 717
at 22 (Almanzar's counsel arguing at sentencing, in
Almanzar's presence, that "the way the negotiations
went in this [*6] case," Almanzar would have pled
to the charge, but for the application of the
minimum mandatory sentence).
Since Almanzar's contention that there was a 120month plea offer from the government is
contradicted by the record, his related claim that his
counsel was deficient in failing to advising him of
greater sentencing exposure if did not accept such
offer, also fails. Moreover, as the government
notes, Almanzar was advised on numerous

occasions by the Court that the drug conspiracy
charge against him carried a minimum mandatory
sentence of ten years, but the maximum sentence
was life imprisonment. D. 882 at 4 (initial
appearance); D. 887 at 2 (arraignment on
indictment); D. 883 at 4 (arraignment on
superseding indictment).
Moreover, Almanzar has also failed to show how
this alleged deficiency prejudiced him given the
sentence that the Court imposed. At the sentencing,
his counsel urged the Court to impose a 120-month
sentence, the minimum mandatory sentence (and
the specific relief that Almanzar now seeks in the
Petition). D. 717 at 22-26; D. 876-1 at 13. Although
the Court did not adopt this recommendation and
rejected his counsel's argument that he should
receive a two-level downward [*7] adjustment for
acceptance of responsibility given that he had
proceeded to trial on the limited issue of drug
quantity, not guilt, D. 717 at 22-26, the Court
expressly noted that the variance it gave from the
otherwise
applicable
GSR
incorporated
consideration of acceptance of responsibility. D.
717 at 31-32. That is, there is nothing to suggest
that but for counsel's alleged errors, the Court
would have imposed a different sentence.

2. Counsel was Not Deficient in Not Moving to
Sever Almanzar's Trial
"The preference for a joint trial is particularly
strong where the charge is conspiracy," United
States v. Saunders. 553 F.3d 81, 85 (1st Cir. 2009),
as it was here between Almanzar and Pena.
Accordingly, "the severance of coconspirators'
trials 'will rarely, if ever, be required.'" United
States v. Flovd. 740 F.3d 22, 36 (1st Cir. 2014)
(quoting United States v. Flores-Rivera, 56 F.3d
319, 325 (1st Cir. 1995)). Severance is only
warranted if there is a showing that there was a
"serious risk that a joint trial would compromise a
specific trial right of [a defendant], or prevent the
jury from making a reliable judgment about guilt or
innocence."' United States v. Celestin. 612 F.3d 14,

Page 4 of 5
2019 U.S. Dist. LEXIS 14485, *7

19 (1st Cir. 2010) (quoting Zafiro v. United States. 28, 32 (1990). Accordingly, this ground of the
506 U.S. 534, 539, 113 S. Ct. 933, 122 L. Ed. 2d Petition also does not warrant habeas relief.2
317 (1993)).
Almanzar has failed to show how not seeking
severance, particularly in light of this standard,
amounted to deficient performance by his counsel.
He alleges that if his trial had been severed from
Pena's, he could [*8] have had the benefit of Pena's
testimony in his trial. D. 876-1 at 11-12. He fails to
explain sufficiently what that testimony would have
been, if Pena would have testified on his behalf and
how such testimony would have aided his case,
which is part of the requisite showing he would
have to make to demonstrate that severance for this
purpose was necessary. United States v. Smith. 46
F.3d 1223, 1231 (1st Cir. 1995); see United
Drougas. 748 F.2d 8. 19 (1st Cir. 1984). Although
Almanzar suggests that Pena would have testified
that he, not Almanzar, was "Gallo," D. 876-1 at 11;
D. 892 at 5, there was much in the record presented
at trial to suggest that such testimony (assuming
arguendo that Pena would have testified to same),
would not have been credible given the evidence,
including but not limited to intercepted
communications between Pena, Almanzar and
others, tending to show that Almanzar was "Gallo"
and was a drug supplier to Pena. D. 504 at 100-12.
Almanzar also does not explain credibly how his
and Pena's defenses rose to such a level of conflict
such that the factfinder "will unjustifiably infer that
this conflict alone demonstrates that both are
guilty." United States v. Davis. 623 F.2d 188, 194
(1st Cir. 1980). As alleged (and as proven at the
bench trial), Almanzar and Pena were co­
conspirators and Almanzar supplied large
quantities [*9]
of cocaine to Pena for
redistribution. It remains unclear how the two
men's defense(s) to the conspiracy charge (or, more
precisely, to the drug quantity, the only issue they
contested at the bench trial) were so irreconcilable
as to require severance. Since, even now, the basis
for a severance motion remains unclear, this Court
cannot conclude that counsel was deficient in not
making such a motion, that on this record, would
not have had merit. Acha v. United States. 910 F.2d

VI. Conclusion and Certificate of Appealability
For the foregoing reasons, the Court DENIES the
Petition, D. 876.
A petitioner may receive a certificate of
appealability only if he has made "a substantial
showing of the denial of a constitutional right." 28
U.S.C. § 2253(c)(2); Miller-El v. Cockrell. 537
U.S. 322, 336, 123 S. Ct. 1029, 154 L. Ed. 2d 931
(2003). Such a showing is made when "reasonable
jurists would find the district court's assessment of
the constitutional claims debatable or wrong."
Slack v. McDaniel. 529 U.S. 473, 484, 120 S. Ct.
1595, 146 L. Ed. 2d 542 (2000). Based upon its
analysis of the record and the applicable law, this
Court does not, at this time, conclude that
"reasonable jurists" could debate this Court's
conclusion. Id, Accordingly, the Court is not
inclined to issue a certificate of appealability but
will give Petitioner [* 10] until February 21, 2019
to file a memorandum, not to exceed five pages, if
he desires to address the issue of whether a
certificate of appealability is warranted as to the
Petition.
So Ordered.
/s/ Denise J. Casper
United States District Judge

2 To the extent that Almanzar seeks an evidentiary hearing (and/or
discovery) on any of his grounds for the Petition, D. 876-1 at 13,
such hearing or related measures is not warranted. For the reasons
stated above, in light of the record already before the Court, the
grounds asserted here do not support the relief that Almanzar seeks
in the Petition and there are no material disputes that warrant a
hearing or discovery. Barrett v. United States. 965 F.2d 1184, 1186
(1st Cir. 1992); Moreno-Morales v. United States. 334 F.3d 140, 145
(1st Cir. 1998) (noting that "[e]videntiary hearings on § 2255
petitions are the exception, not the norm, and there is a heavy burden
on the petitioner to demonstrate that an evidentiary hearing is
warranted").

